No. 21-5525

IN THE SUPREME COURT OF THE UNITED STATES
September 2, 2021

THOMAS RICHARDSON, Petitioner,
v.
THE STATE OF NEVADA, Respondent

CERTIFICATE OF SERVICE

I, JONATHAN E. VANBOSKERCK, a member of the Bar of this Court, hereby certify
that on this 2" day of September, 2021, one copy of Respondent’s Brief in Opposition to Petition

for the Writ of Certiorari in the above-entitled case was mailed, first class postage prepaid.

To: *DAYVID FIGLER (counsel of record)
Margaret McLetchie
McLetchie Law
602 S. 10" Street
Las Vegas, Nevada 89101
*Counsel for Petitioner

I further certify that all parties required to be served have been served.

Chief Deputy Dis District Attorney
Nevada 16528
- Regional ctice Center
i Lewis Avenue
Las Ve as, Nevada 89155-2212
7 02)6

ounsel oF Revord*

Counsel for Respondent
